Audit of NSF Practices to Oversee and
Manage Its Research Center Programs


       National Science Foundation
       Office of Inspector General


            November 14,2007
               OIG 08-2-002
Table of Contents

        Executive Summary.. .............................................................. .i

        Introduction........................................................................... I

        Objective, Scope, and Methodology.. ........................................ .2

        Results of Audit.. ................................................................... 4

        The National Science Board and NSF Senior
        Management Have Developed Guidelines for Centers.. .................4

        NSF1sImplementation of Board and Senior
        Management Guidance Has Been Inconsistent............................. 6

        NSF Needs to Clearly Communicate
        Expectations for Center Programs to Adopt
        Board and Senior Management Principles and Practices..............13

        A Formal Mechanism for Sharing Information
        Across Center Programs Could Enhance
        Center Management and Oversight ......................................... 14

        Conclusion ........................................................................ . I 5

        Recommendations.. ............................................................. . I 6

        Agency Response and OIG Comments..................................... 16

        Appendix I: Agency Response.. ............................................. . I 9

        Appendix II: Description of Each Center Program..: ..................... 22

        Appendix Ill: National Science Board and NSF
        Senior Management Principles for Center Programs ...................24

        Appendix IV : Comparison of Eight Center Programs
        With Board and Senior Management Principles and Practices........26
Executive Summary

Background:         The National Science Foundation's (NSF) eight research
                    Center programs fund individual research centers in
                    various research fields, such as nanoscale technology,
                    engineering, and the science of learr~ing.The purpose of
                    these Center programs is to exploit opportunities in
                    science, engineering, and technology where the
                    resources needed require advantages available only
                    through an academic research center setting. In Fiscal
                    Year 2006, NSF's 8 Center programs supported 99
                    individual centers for a total of over $250 million.


Purpose:            The management and oversight provided by NSF is vital
                    to the success of these Center programs. The objective
                    of this audit was to determine if NSF had developed the
                    management and oversight controls necessary to help
                    ensure the success of its Center programs.


Results in Brief:   While the National Science Board (Board) and NSF
                    senior management have issued general guidance and
                    principles for Center programs to follow, the eight Center
                    programs have not consistently implemented this
                    guidance. Further, NSF had not incorporated the Board
                    and senior management guidance into its written agency
                    policies and procedures. In addition, NSF lacks a formal
                    mechanism for Center program managers to share
                    information and best practices to enhance their
                    management and oversight of these programs.

                    Because NSF has not formalized the guidance
                    recommended by the Board and NSF senior
                    management into official NSF policy, it is at risk of having
                    ineffective management and oversight of its Center
                    programs. This may contribute to decreased
                    accountability of the significant federal funds being
                    expended, and may pose a disadvantage to the Center
                    programs and the centers themselves in terms of
                    achieving goals.
Recommendations:   In order for NSF to mitigate these risks and effectively
                   enhance stewardship of its Center programs, we
                   recommend that NSF issue a written policy that includes
                   the Board and senior management's guidance and
                   principles for Center programs. In addition, we
                   recommend that NSF establish a permanent forum for
                   the Center programs at which management and other
                   practices can be shared among all Center programs.


Agency Response:   NSF generally agreed with our findings and agreed with
                   our recommendation to reinstitute a forum through which
                   Center program managers car1 identify and exchange
                   promising practices as well as discuss common issues.
                   However, NSF did not agree with our recommendation to
                   develop and implement written policies and procedures
                   that formally incorporate the Board and NSF senior
                   management guidance on Center programs. NSF
                   expressed concern that these policies wou Id be inflexible
                   and stifle the development of other ir~novative
                   management and oversight practices. In response to
                   NSF's comments, we have modified our recommendation
                   to clarify that we do not intend for NSF to issue a
                   prescriptive policy.
Introduction
               The National Science Foundation (NSF) supports basic research in
               a number of fields, including mathematics, computer sciences, and
               the social sciences. While NSF typically funds research through
               three-year grants to individuals or small groups of investigators
               whose research proposals have been selected using NSF's merit
               review process, NSF also provides funding for large endeavors,
               including research centers and facilities.

               NSF currently supports eight research Center programs that fund
               individual centers in a variety of research fields, including
               nanoscale technology, engineering, and the science of learning.'
               These Center programs, based in the various NSF directorates, are
               designed to exploit opportunities in science, engineering, and
               technology in which the complexity of the research problem, or the
               resources needed to solve the problem, require advantages that
               can only be provided by an academic research center, including
               equipment, facilities, and students. The Center programs select
               individual centers for funding using NSF1scompetitive, merit review
               process.

               In Fiscal Year (FY) 2006, NSF's 8 Center programs funded 99
               individual centers for a total of over $250 million. The funding levels
               and number of centers funded by each of the eight Center
               programs are as diverse as the research areas they address. For
               example, the Biological Sciences Directorate's Centers for Analysis
               and Synthesis program funds 2 centers for a total of $6.4 million
               annually, while the Mathematical and Physical Sciences
               Directorate's Materials Research Science and Engineering Centers
               program funds 29 centers for a total of $53.5 million annually. A
               description of each of NSF's Center programs can be found in
               Appendix II.

               As shown in the following table, NSF's funding for these eight
               Center programs represents a substantial investment. In FY 2006,
               NSF's funding for Center programs represented about 4.4 percent
               of the agency's total budget and about 6 percent of the Research
               and Related Activities appropriations account. Over time, NSF has


'The eight research center programs are classified in NSF's budget as Center programs. There
are other programs funded by NSF that include the word "center" in the program name, such as
Federally Funded Research and Development Centers and IndustryIUniversity Cooperative
Research Centers. Because NSF does not classify these programs in its budget as Centers, we
did not include them in the scope of our work.
                  spent more than $2.8 billion for these eight research Center
                  programs.


Table One: Information on NSF's Center Programs

                                     Year   Number Average Age     FY 2006      Total Funding
Center Program                     Program of Current of Current Dollars Spent Since Inception
JCognizant Directorate)            Started  Centers    Centers    (millions)      (millions)
Centers for Analysis and Synthesis
$Biologicalsciences )                1995       2         6.6          6.4           36.5
Chemical Bonding centers1
(Mathematical and Physical
Sciences - MPS)                      2004       6         1.6          2.7            4.3
Earthquake Engineering Research
Centers
$Engineering- ENG)                   1986       3         9.0         6.0           106.2
Engineering Research Centers
JENG)                                1985      19         5.0         60.2         1,060.6
Materials Research Science and
Engineering Centers
IMPS)                                1994      29         8.9         53.5          602.8
Nanoscale Science and
Engineering Centers
$Multi-directorate,ENG lead)         2001      17         3.0        40.0           143.7
Science and Technology Centers
(Multi-directorate, Office of
Integrative Activities lead)         1988      17         3.7         62.6          794.0
Science of Learning Centers
(Multi-directorate, Social,
Behavioral, and Economics lead)      2003       6         1 .O        20.7           80.3
 TOTAL                                               99                          252.1            2,828.4
' ~ o t e :The Chemical Bonding Centers program, begun in 2004,made six awards during its initial Phase I
 competition. In 2006,the program invited three successful Phase I projects to apply for Phase II full-scale
 center. To date the program has made one Phase II award.

                  Centers progranis are a principal means by which NSF fosters
                  interdisciplinary research and education. As such, they play an
                  important role in helping NSF achieve its mission and vision to
                  promote and advance science and engineering.



Objectives, Scope, and Methodology

                  The objective of this audit was to determine if NSF has developed
                  management and oversight controls to help ensure the success of
                  its Center programs. In making this determination, we reviewed the
                  eight NSF Center programs in existence during FY 2006.

                  We researched and reviewed relevant Federal laws and
                  regulations, NSF policies and procedures, prior Office of Inspector
                General reports and other pertinent studies addressing
                management of large center-type research operations.

                We developed criteria for what constitutes strong management and
                oversight of Center programs based on guidance from the National
                Science Board and NSF's Senior Management lntegration ~ r o u p . *
                To provide context for the application of these broad criteria in a
                federal agency, we relied on the Government Accountability
                Office's Standards for lnternal Control in the Federal ~ o v e r n m e n t , ~
                which provides an overall framework for establishing and
                maintaining internal controls and for identifying and addressing
                performance and management challenges. These internal corttrols
                help government agencies to achieve desired program results and
                ensure the effective stewardship of public funds. To confirm the
                validity of the criteria, we obtained feedback from NSF program
                officials. A list of these criteria can be found in Appendix III.

                To assess whether NSF Center programs incorporated these
                criteria into their program activities, we met with appropriate NSF
                officials to obtain an understanding of each of the Center programs.
                We reviewed systemic, program-wide documents, such as program
                solicitations and program terms and conditions that apply to a set of
                awards made under a given solicitation. In addition, we selected a
                small judgmental sample of individual awards from each of the
                eight Center programs, and reviewed relevant documents including
                the cooperative agreements and site review reports. We did not,
                however, perform a detailed review of every center funded by each
                of the NSF Center programs.

                We conducted our audit in accordance with generally accepted
                government auditing standards between September 2006 and July
                2007.




  The Senior Management lntegration Group, an advisory group composed of agency senior
managers, including the Assistant Directors of each directorate, is now referred to as the Senior
Management Round Table.
3
  U.S. General Accounting Office (now the U.S. Government Accountability Office), Standards for
lnternal Control in the Federal Government, GAOIAIM D-00-2 1.3.1, November 1999.
Results of Audit

                 The National Science Board and NSF senior management have
                 issued general guidance and principles for Center programs that
                 provide a framework to ensure effective management, oversight,
                 and accountability for NSF's eight Center programs. However, not
                 all Center programs have consistently followed this guidance nor
                 has NSF incorporated the guidance into its written agency policies
                 and procedures. As a result, the lack of official guidance for
                 program officials places NSF at risk of not having effective
                 management and oversight practices to ensure the goals of the
                 Center programs are met and to provide accountability for the
                 significant federal funds supporting these programs.

                 NSF can mitigate these risks and enhance its stewardship of these
                 programs by issuing written policies for the management and
                 oversight of Center programs. In addition, NSF should permanently
                 establish a forum for sharing best management and other practices
                 among the Center programs.



The National Science Board and NSF Senior
Management Have Developed Guidelines for Centers

                 The National Science Board (Board) and NSF have a long-standing
                 commitment to fund Center programs. This mode of funding
                 facilitates scientific research on a scale larger than that which could
                 be accomplished through the traditional NSF programs which fund
                 the research of a single or a small group of investigators. In 1988,
                 the Board formally described a research center, and recognized the
                 value of conducting large-scale scientific research at centers as a
                 means of addressing the growing complexity, cost, and
                 organization of modern r e ~ e a r c h . ~

                 The Board augmented its support for center programs with
                 guidance issued in December 2005.~      In this guidance, the Board
                 defined four principles that serve as the basis for Center programs.
                 The first principle addressed the issue of portfolio balance. -The
                 Board stated that the range of NSF's support for Center programs
                 should be between four and six percent of NSF's overall budget,
                 and between six and eight percent of NSF's Research and Related

    NSB-88-31, February 11-12, 1988.
5
    NSB-05-166, December 1, 2005.
Activities appropriations account. This account is the primary
source of funding for most of NSF's scientific and engineering
research activities.

In its second principle, the Board directed NSF to periodically
review its investment in Center programs to ensure that no
individual center has evolved into activities that could best be done
by a single or small group of investigators. It also stated that the
 Board itself s h o ~ ~regularly
                        ld       review Center programs, and centers
should not be created and supported without considerable
justification by NSF.

In its third principle, the Board reaffirmed its commitment that
awards should be recompeted unless it is judged to be in the best
interest of U.S. science and engineering not to do so. The Board
further stated that continued funding for Center programs should be
determined through open, merit-based competition. It also
suggested that NSF establish guidelines for the review and renewal
of individual centers, including the phase-down of support for
centers that are not renewed.

Finally, the Board directed NSF Center programs to implement
proven management practices. The Board endorsed the
implementation of these practices, including strategic planning, the
use of strong cooperative agreements, and the corr~rr~itnie~it
                                                             of
ample resources for management at the individual centers and
within NSF.

Prior to the Board issuing this additional guidance on Center
programs, the NSF Director presented a document on principles of
centers to a joint session of the Board's Committee on Program
and Plans and the Committee on Strategy and Budget held in
August 2005. This document, entitled "Principles of National
Science Foundation Research Centers," was developed by NSF's
Senior Management Integration Group to clarify NSF's concept of
the centers mode of support. The document outlined NSF senior
management's vision for Center programs, and specified critical
elements for them. These elements were based on NSF's
Strategic Plan and multiple NSF strategies to facilitate knowledge
creation, integration, and transfer.

The critical elements for individual centers include conducting bold
and transformative research at the frontiers of knowledge;
broadening participation from a diverse set of partner institutions
and individuals; and focusing on integrative learning and discovery
at all levels, from students to the general public. In addition,
               individual centers should maintain organizational linkages between
               the lead institutions and other schools and sectors (public, private
               and international). The senior management guidance suggested
               NSF provide support to individual centers on the order of $2-5
               million annually for a maximum of 10 years. The Center programs
               should also include a phase-down period whereby NSF funding to
               an individual center is reduced during the last years of the award
               period.

               When considered collectively, these Board and NSF principles set
               expectations and policies for Center programs and .the individual
               centers they fund. We grouped these principles into four broad
               areas:
                      Center research and education characteristics;
                      l ndividual center management practices;
                      NSF's oversight activities; and
                      NSF funding levels and duration of center support.

               Appendix Ill contains details on the principles and practices that
               comprise each of these areas.




NSF's Implementation of Board and Senior Management
Guidance Has Been Inconsistent

               The Board and NSF senior management outlined principles and
               practices that, when implemented, provide the NSF Center program
               staff with a framework for managing and overseeing each of the
               Center programs funded by NSF. These principles and practices
               also help to minimize the financial and management risks inherent
               in these large-scale, long-term endeavors.

               In comparing each NSF Center program with these principles and
               practices, we found that all of ,these programs require that each
               individual center they fund include activities that address the
               research and education characteristics outlined by the Board and
               NSF senior management. However, managers of the eight Center
               programs have not consistently implemented the Board and senior
               management guidance addressing other management and
               oversight practice^.^



 See Appendix IV for an analysis comparing each of the eight Center programs with the Board
and senior management principles.
All of NSF's Center Programs lncorporate Research and
Education Characteristics into Their Programs

The Board and NSF senior management principles outlined the
research and education characteristics that help define a project as
being a center. These characteristics include conducting innovative
research that is beyond the abilities of a single or small group of
researchers, broadening participation of underrepresented groups,
incorporating educational components into the work of the center,
and establishing organizational linkages with other institutions and
public and private organizations.

All of the Center programs require individual centers to address
these characteristics. By requiring individual centers to include
these research and education components in their operations, staff
for NSF's Center programs are taking an important step in ensuring
that the most appropriate research endeavors are funded. The
most recent solicitations for all eight Center programs outlined and
defined these components. Furthermore, during the merit review
process, panels of expert reviewers assessed proposals for centers
using many of these criteria.


Not All NSF Center Programs lncorporate Requirements for
Management and Oversight Practices at Individual Centers

Strong management and oversight practices at the individual
centers funded by NSF's eight Center programs should include a
variety of activities. While all of the NSF Center programs require
individual centers to outline a management plan or positions and to
have an external advisory board, not all NSF Center program staff
have included requirements for such basic management activities
as strategic planning and performance reporting activities at the
individual centers their Center programs fund.

For individual centers, strategic planning is a management
practice of partic~~larimportance because it communicates a
center's goals for its research program, elicits feedback to promote
coordination among the various components thaJ comprise the
center, and helps ensure that those involved in an individual center
have a common understanding of the vision and mission for an
integrated, comprehensive center. Directors of some of the Center
programs noted the various benefits that strategic planning
provides, and strategic planning is also one of the management
strategies explicitly noted by the Board in its guidance on Center
programs.

We found that six NSF Center programs require individual centers
to develop strategic plans for their center activities and operations.
However, two Center programs, the Chemical Bonding Centers
(CBC) and the Materials Research Science and Engineering
Centers (MRSEC), do not. In FY 2006, these two programs, which
are part of NSF's Mathematical and Physical Sciences Directorate,
collectively funded 35 individual centers for a total of $55 million, or
22 percent of NSF1sCenter funding for the year.

For the CBC program, its director noted that developing a strategic
plan was suggested but not required by NSF. For the MRSEC
program, its director noted that this program does not require
formal strategic planning because a center's original proposal
outlines its plan, and a center's annual report contains information
about the planned work for ,the next year. The program director
further explained that this approach permits the centers to re-invent
themselves as needed and to focus on productivity.

By not requiring a strategic plan, both of these programs may not
be capitalizing on the benefits of strategic planning noted by other
Center programs. For example, a strategic plan can provide a
blueprint for how an individual center will eventually operate without
NSF funds. This could benefit the MRSEC program by making
clear to a center that it should not expect indefinite funding.
Currently, the average age of an individual MRSEC center is 9
years, and 17 of the 29 centers (59 percent) have received or will
receive MRSEC funding beyond the 10 years maximum
recorr~mendedby NSF senior management.

Collecting and reporting on performance data is another
effective management and oversight tool that can help ensure the
success of Center programs. Performance data, and the
accompanying performance measures, provide NSF and the
individual centers with the information they need to assess the
progress and achievement of the program as well as identify areas
for irr~provenient.

Six of the eight NSF Center programs require the individual centers
they fund to collect and report performance data. However, two
center programs, the Centers for Analysis and Synthesis (CAS) and
the CBC programs, do not. In FY 2006, the CAS program funded 2
centers for a total of $6.40 million, and plans to fund a new center
for up to $10 million annually. In the same year the CBC program
funded 6 center awards for a total of $2.7 million.

The CAS program director explained that it is a challenge to
develop adequate quantitative, statistical assessment tools that can
be applied across centers and it is difficult to extract data from the
annual report for analysis and comparative purposes. Yet even
with this challenge, the program director is considering how to
develop a more uniform reporting format that could be applied
across all three centers. Similarly, the CBC program director
explained that the program still needs to identify what performance
measures and data they should collect and then deterrr~inehow to
collect and compile the data.


Not All NSF Center Programs Have Implemented Principles for
NSF Oversight

The staffs of NSF's eight Center programs have a variety of
oversight practices available to help ensure the success of their
programs. These practices include the merit review of proposals,
annual site reviews, critical site reviews to determine if funding will
be continued, the collection of performance data, and reviews by
Committees of Visitors and other external evaluators. However, of
all these practices, the merit review of proposals is the only one
adopted by the staff of all Center programs.

Annual site visits by NSF staff to the individual centers are one
important step to help ensure accountability and oversight of a
center's activities. Some NSF Center program staff noted that
annual site visits provide a means to obtain timely information
about the management, operations, and performance of individual
centers, and are particularly useful in helping to identify individual
centers that are not performing as planned or expected. The
information collected during annual site visits not only provides an
assessment of current conditions, but allows for timely corrective
actions to be taken. The information also provides a benchmark for
future reviews to determine if the center is continuing to perform as
expected, whether necessary improvements are being
implemented, or, in extreme situations, if NSF should withhold or
terminate funding.

Six of the eight NSF Center programs perform annual site reviews
of the individual centers they fund; the MRSEC and CBC programs
do not. The MRSEC program staff instead waits until the third year
of the award, half way through the award period, to conduct such
visits. According to the MRSEC program director, the program
officers review annual reports submitted by the centers and meet
with the all of the center directors twice a year, either at NSF or at a
MRSEC facility. However, more frequent on-site reviews at each
center could provide the MRSEC program with the means to
observe and document the actual conditions at the center and
verify the information that the center provided in reports and off-site
meetings.

The CBC program staff stated that they plan to conduct an on-site
review during the first year of a center's operation and an external
site review during the second year. However, these plans were not
conveyed in the program solicitation or the cooperative agreement,
which are two significant ways of communicating these important
oversight activities to the individual centers.

In addition, the CBC program is the only Center program where
staff has not outlined or communicated plans for critical reviews of
its new centers. According to the CBC program director, the
program is developing an oversight plan which will include a critical
review of a center's operations. However, these expectations
should be articulated at the onset of the program to help convey the
fact that the renewal of funding for a center will be merit-based
rather than automatic.

Another means of providing external feedback to a Center program
is through a review conducted by a Committee of Visitors
(COV). A COV review, conducted by independent external experts,
provides NSF program managers with an objective assessment of
the quality and integrity of program operations and program-level
technical and managerial matters pertaining to proposal decisions.
This includes addressing the integrity and efficiency of the
processes used by NSF to solicit, review, recommend, and
document proposal decisions and actions. A COV review also
comments on how the research results have contributed to the
attainment of NSF's mission and strategic outcome goals. NSF
policy requires that a COV review be conducted every 3 years.

Seven of the eight NSF Center programs have held a COV review
or are scheduled to hold their first one. However, the Science and
Technology Centers (STC) program, which began in 1987, has
never held a COV review. In FY 2006, the STC program funded 17
centers for approximately $63 million, or 25 percent of NSF's total
Center program funds. According to the STC program director,
this program is a multi-directorate program whereby the proposal
review process is solely managed by the Office of Integrative
Activities (OIA). After the STC awards are made, primary
responsibility for the oversight of the individual center award rests
with a given division within one of NSF's scientific directorates. As
such, these individual STC awards are included in the division's
research awards portfolio that will be examined by a COV for that
division.

However, part of the COV review includes examining the process
used to make the awards, which for the STC program is managed
by OIA. Because OIA is not organizationally a part of any of the
scientific directorates within NSF, its initial adrr~irristrationof the
STC award process falls outside the purview of any other COV
review. As a result, the STC program is missing an opportunity for
external assessments to validate or improve the STC award
process. Furthermore, COV reviews are performed for other multi-
directorate Center programs. For example, the Nanoscale Science
and Engineering Centers program, whose individual center awards
are nia~iagedin various directorates, held a COV review in 2006.
The other multi-directorate program, the Science of Learning
Centers, began in 2003 and is scheduled to hold its first COV
review in 2008.

Finally, external evaluations of the NSF Center programs provide
important information to NSF and other stakeholders beyond that
provided through the COV process. COV reviews exarrrine the
program operations related to the award decision-making process
and consider how the portfolio of individual projects has contributed
to NSF's mission and goals. External evaluations can assess the
longer-term performance, outcomes, and impacts of a given
program. Such evaluations should ideally be planned for and
implemented at the start of a program so as to capture baseline
and annual data, and to identify and address issues affecting the
program and its outcomes.

While five of the eight NSF Center programs have had external
evaluations conducted of their programs, the CAS, CBC, and
Earthquake Engineering Research Center (EERC) programs have
not. According to the CAS program director, the combination of site
visits, COV reviews, and community involvement provides sufficient
feedback for the program. The CAS program plans, however, to
ask the next center it funds to include assessment procedures in its
activities. The CBC program director indicated that they are
planning for an evaluation but have not yet taken steps to
implement this plan. The EERC program director noted that,
pending availability of funding, NSF is considering conducting a
summative assessment of the impact of the three EERCs.
Not All NSF Center Programs have Adopted Recommended
Funding Levels and Award Durations of NSF Support

In their principles and guidance for Center programs, the Board and
NSF senior management also addressed NSF's support for
individual centers by recommending funding levels and award
durations. This included NSF funding individual centers in the
range of $2-5 million annually and NSF not providing funding for an
individual center for more than 10 years.

However, 2 of the 8 NSF Center programs have not incorporated
the funding range of $2-5 million annually into their practices. In
the MRSEC program, 18 of the 29 current awards are for $2 million
or less annually, while at the other extreme, one CAS center is
scheduled to be fl-~ndedfor I.I~to $10 million annually. By funding
individual centers outside of the $2-5 million range annually, these
programs may be supporting activities that would be more
appropriately funded by other NSF programs that are intended for
small investigator awards or, alternatively, for large facilities or
other unique research endeavors.

In addition to the recommended range of funding for individual
centers, the NSF senior management also noted that funding for an
individual center should not continue for more than 10 years, with
the expectation that NSF funding will be phased down in the last
few years of the award. This principle of limiting NSF support helps
mitigate a variety of risks that would undercut the concept of using
Center programs to fund research. These risks include funding that
continues indefinitely; projects evolving into work that is more
appropl-iately funded by awards to single investigators or small
groups of investigators; and having adequate funding available for
other new and innovative center projects. The 10-year limit can
also spur existing centers to evaluate their future, pursue other
sources of funding, and consider other new research opportunities
and initiatives in anticipation of NSF's termination of center funding.

Although 6 of the 8 NSF Center programs have followed senior
management funding duration guidelines, the MRSEC and CAS
programs have not. Of the 29 current WlRSEC centers, 17 have
already received or will receive NSF funding for more than 10 years
and, under the terms of their current cooperative agreements, may
receive NSF funding for between 14 and 16 years. In the CAS
program, one center recently received an $18 million award that
extends its cooperative agreement to 16 years.
NSF Needs to Clearly Communicate Expectations for
Center Programs to Adopt Board and Senior
Management Principles and Practices

        NSF's eight Center programs cover a wide range of scientific
        disciplines and primarily reside organizationally in the directorate
        and program area that is most appropriate for the research being
        conducted. Because of the decentralized management of the
        Center programs within NSF, it is irr~perativethat the agency
        establish, and communicate to its directorates, offices, and staff, an
        overall policy of how the Center programs will adopt and implement
        the Board and senior management principles for management and
        oversight.

        However, NSF has not incorporated these principles and guidance
        into written policy and procedures to be followed by each of its
        Center programs. As a result, the eight Center programs have not
        consistently adopted these principles, leading to differences among
        the Center programs in important areas such as strategic planning,
        reporting requirements, funding levels, and duration of NSF
        support.

        A written policy and procedures would clarify NSF's basic
        expectations of how the Center programs will incorporate the Board
        and senior management principles and provide for management
        and oversight procedures to ensure their implementation. A clear
        policy would provide broader guidelines for those instances when
        different management approaches may be needed to carry out the
        varying nature and types of research. Such a policy could also
        document successful management and oversight practices that
        have been identified in the 20-plus years that NSF has funded
        Center programs.

        In addition, a written policy and procedures for Center programs
        would help ensure that the Board's and NSF's management
        directives are carried out and that the Center programs best
        support the agency's rnission. Such documentation would also
        provide a framework for the effective stewardship of the significant
        financial investment NSF has in these programs.

        Finally, a written policy and procedures would allow NSF to review
        all Center programs using a consistent set of baseline criteria. By
        applying these criteria to each program, NSF could decide whether
        changes should be made to a Center program in order to meet the
        criteria, or if funding for the program should be reclassified in NSF's
        budget and management structure.



A Formal Mechanism for Sharing Information Across
Center Programs Could Enhance Center Management
and Oversight

        In addition to lacking a written agency-wide policy for Center
        programs, NSF currently has no formal mechanism for sharing
        information and experiences across the Center programs. Such a
        means for communication would allow for the exchange of
        information across Center programs to better plan, coordinate and
        manage activities to achieve program and agency objectives. This
        communication would also help facilitate management oversight
        and improve accountability of center awards.

        NSF has taken a decentralized approach to managing Center
        programs, delegating oversight responsibility for individual Center
        programs to staff in the cognizant directorate. Nevertheless, NSF,
        through the Office of Integrative Activities, organized a series of
        forums in 2003 and 2004 for effective center practices in which
        lessons learned in managing all types of Center programs and
        other large groups were shared by NSF attendees.

        These forums have not been held recently because of a perception
        that there are a limited number of topics to cover. However, there
        is still a demand for this method of sharing information. Individual
        NSF managers of Center programs that we interviewed stated that
        it would be useful to them to continue to have such forums
        periodically because sharing experiences across programs can
        lead to more successful oversight and overall programs. For
        example, many NSF Center program directors spoke about the
        challenges of not having ample staff, funding, andlor time for
        managing their program and centers effectively, and each NSF
        program director utilized different strategies to try to overcome
        these challenges. With group meetings, these NSF program
        directors would have an efficient means for sharing practices that
        could be applied or modified for each Center program. The Center
        programs may fund very different types of research, but their need
        for effective management and oversight practices are the same.
Conclusion

        NSF's Center programs are a principal means of fostering
        interdisciplinary research and provide a mechanism for conducting
        large-scale research while incorporating educational goals and
        encouraging partnerships with multiple organizations. This method
        of funding, however, poses inherent risks that NSF must address
        because of the large amount of taxpayer dollars used to fund the
        work, the decentralized management of the Center programs, and
        the need to rely on strong management practices at each of the
        individual centers funded by the programs.

        Guidance on Center programs issued by the Board and NSF senior
        management in 2005 outline principles and practices that can help
        address these risks. These include implementing proven
        management principles, such as strategic planning, and having
        uniform and explicit procedures that address the review, renewal,
        and phase-down of individual centers.

        However, not all directorates have incorporated these principles
        into their own Center programs because of the lack of a written
        agency-wide policy and procedures for Center programs. As a
        result, the Center programs have inconsistently adopted Board and
        senior management principles. Implementing a policy for Center
        programs could help NSF staff control for the programmatic,
        administrative, and fiscal risks inherent in its eight Center
        programs; provide a framework for NSF staff to develop strong
        program requirements; and provide strong oversight to the
        programs. Such a policy would also assist in the effective
        stewardship and accountability of the significant financial
        investment NSF has and continues to make in these programs.
        These actions, in turn, can provide a structure that helps NSF in
        ensuring the success of its Center programs.

        Finally, a permanent forum within NSF for discussing issues related
        to Center programs and individual centers would greatly benefit
        NSF staff charged with managing these programs. Without such a
        forum, NSF loses the opportunity to leverage resources, share best
        practices, and address common problems in managing programs
        that are very similar in mission.
Recommendations

       The Board and NSF have made a commitment to using research
       centers as a mode of funding research on the frontiers of science
       and engineering. While many of NSF's eight Center programs
       have independently developed management and oversight controls
       to help ensure their success, NSF should strengthen its
       management and oversight policies and practices across the
       programs to help facilitate their success and ensure accountability
       for this significant commitment of taxpayer dollars. Therefore, we
       recommend that the Director, NSF:

       1. Develop and issue a written policy for Center programs that
       includes the Board guidance and senior management principles,
       and explains NSF's expectations of how these are to be used by
       Center programs.

       2. Reinstitute the centers working group to share learning
       experiences, address joint issues, and document promising
       practices that would help to ens[-irethe success of individual
       centers and the Center programs.



Agency Response and OIG Comments

       NSF generally agreed with our findings and agreed with our
       recommendation to reinstitute a forum through which Center
       program managers can identify and exchange promising practices
       as well as discuss common issues. However, NSF did not agree
       with ol.lr recommendation to develop and implement written policies
       and procedures that formally incorporate the Board and NSF senior
       management guidance on Center programs. According to NSF,
       incorporating this guidance into written policies would, in effect,
       transform the guidance into requirements that all Centers must
       follow. NSF contends that each of the Center programs has
       different goals and different characteristics and therefore may need
       different management practices. Flexibility may be stifled by
       requiring that all Center programs "adopt and incorporate" this
       guidance. Appendix I contains the agency's response in full.

       We agree with NSF that each of its eight Center programs is
       different and unique. However, we do not believe that documenting
       and formalizing existing principles and guidance into written policy
       would transform such guidance into "requirements." Further, this
guidance need not stifle experimentation and innovation in the
management and oversight of Center programs. Rather, written
policy and procedures communicate broad performance
expectations. They are intended to provide a framework and a
baseline from which NSF Center program managers can innovate
and experiment with differing and evolving management and
oversight practices for carrying out program operations.

NSF, in this policy document, can clearly make known that the
principles are not prescriptive and that it does expect variations
among the Center programs in how and the extent to which each of
these programs brings the Board's and senior management's
guidance and principles to life. We believe it is important that NSF
communicate to its Centers staff and management at individual
centers its intentions for how these principles and guidance should
be used and implemented. We further believe that written policy
and procedures can be especially helpful to new Center programs
as they manage new challenges. Finally, we believe that Center
programs should document reasons for variations from the
guidance and should share this information with other Center
programs that may be facing similar issues.

Therefore, to clarify that we do not intend for NSF to issue a
prescriptive policy, we have modified our recommendation to reflect
that that NSF should develop and implement a written policy that
includes the principles and guidance set forth by the Board and
NSF senior management and explains NSF's expectations of how
these are to be used by Center programs in carrying out their
operations.

In addition to commenting on the audit report recommendations,
NSF also provided the corr~mentsregarding information contained
in Appendix IV of the report, which contains a corr~parisonof the
eight Center programs with Board and senior management
principles and practices. The following is a summary of NSF's
comments and the OIG response to these comments.

Centers for Analysis and Synthesis (CAS):
Summary of NSF comments: This program consists of two centers
that were created approximately a decade apart at the urging of the
research community, and these centers are managed as individual
centers rather than a Center program.
OIG response: Whether these centers are managed individually or
as a Center program, the management and oversight practices
should be similar. Therefore, we have not altered our findings as
reported.
Chemical Bonding Centers (CBC):
Summary of NSF comments: The characteristics for which the
program received "No" in Appendix IV have now been incorporated
in the program or are under consideration.
OIG response: At the time of our audit, the CBC program
managers had not yet implemented their proposed actions. We
noted this on pages 9 and 10 of our report, and we commend the
CBC program for moving ahead with these actions.

Materials Research Science and Engineering Centers
(MRSEC):
Summary of NSF comments: Centers may differ in character, and
while NSF has identified the MRSEC program as a Center
program, the size and duration of awards made by this program,
along with other management and oversight tools, do differ from
other Center programs.
OIG response: We concur that Center programs may differ in
character. However, when a program such as MRSECs differs so
significantly from the principles and guidance for Center programs
set forth by the Board and senior management, it is appropriate to
consider whether MRSECs should continue to be classified as a
Center program for budget and management purposes.

Science and Technology Centers (STC):
Summary of NSF comments: This program has not had a
Committee of Visitors (COV) review but has been evaluated in
numerous other ways.
OIG response: We note on page 27 of the report that this program
has had external evaluations. We recognize the unique challenges
presented when responsibility for the management and oversight of
individual centers is separate from the management of the overall
program. Nevertheless, we maintain that the program can benefit
from regular COV reviews, particularly for activities such as the
proposal review process managed within NSF's Office of
Integrative Activities.

Nanoscale Science and Engineering Centers (NSEC):
Summary of NSF comments: Issues of re-competition of center
awards and conditions for center phase-out are under
consideration.
OIG response: At the time of our audit work, program managers
were considering these issues but had not yet implemented their
proposed actions. We commend the program for moving ahead
with these plans.
Appendix I: Agency Response




                                      NATIONAL SCIENCE FOUNDATWN
                                           4201 WILSON BOULEVARD
                                          ARUNOTON. VlROlWA 22230




          MEMORANDUM


          DATE:         November 2,2007

          TO:           Deborah H. Cureton
                        Associate Inspector General for Audit

          FROM:         Kathie L. Olsen, Deputy Director
                        National Science Foundation

          RE:           NSF Comments on the OIG Draft Report: Audit of NSF Practices to
                        Oversee and Manage Its Research Center Programs


          NSF is committed to providing effective oversight and management of its Center
          programs and the Centers supported through these programs. The OIG report "Audit of
          NSF Practices to Oversee and Manage Its Research Centers Programs" provides a
          comprehensive overview of these NSF practices. NSF appreciates the thoroughness of
          the OIG in gathering information for this report by reviewing NSF documents and
          interviewing NSF staff. NSF also appreciates the opportunity to comment on the draft.

          This response is divided into two sections: I) Comment on the Audit Report
          Recommendations; and 11) Comment on the Summary ofpractices across Center
          Programs.


          I.     Comment on the Audit Report Recommendations

          NSF a g e e s with the recommendation that NSF reinstitute a forum through which Center
          program managers can identify and exchange promising practices, as well as discuss
          common issues. NSF also agrees that it is important that NSF staff involved with Center
          programs be fully aware of the two documents referenced in the Audit Report; that is,
          Principles ofNationa1 Science Foundation Research Centers (Senior Management
          Integration Group. 2005) and National Science Board Guidance for National Science
          Foundation Centers Programs (NSB 05-1 66).
However, NSF does not agree with the Report recommendation to develop a written
policy, with procedures for its implementation, which would in effect transform the
Board guidance and senior management principles into requirements for each Center
program. It is NSF's position that the above two documents are intended to provide
guidance for Center management, but not intended to specify practices that all Center
programs must adopt. Each of the NSF Center programs has different goals and different
characteristics. This may result in the need for different management practices from one
Center program to another.

Furthermore, NSF wishes to promote experimentation and innovation in the management
and oversight of its Center programs. In fact, through this experimentation, current
practices have evolved. NSF wishes to keep open the possibility of discovering more
effective management practices, but this experimentation may be stifled by requiring that
all Center programs "adopt and incorporate" principles as recommended in the Audit
Report.

11.    Comment on Summary of NSF Practices across Center Programs

The Audit Report provides descriptive text ofthe practices used in the NSF center
programs, with this information summarized in the Appendix IV Table: Comparison of
Eight Center Programs with Board and Senior Management Principles and Practices.
NSF considers the text as providing a more accurate portrayal of the situation than does
this table.

Centers for Analysis and Synthesis (CAS). CAS consists of two centers (NCEAS and
NESCent) that were created approximately a decade apart at the urging of the research
community. NCEAS has been assessed every three years as part of a COV, had external
site visit reviews conducted annually, major evaluations every three years, and two
reviews conducted in the eleventh year of the project. NESCent is beginning its third
year and has undergone annual site visit reviews. As indicated in the Audit Report, a third
center is expected to be funded by the Biological Science Directorate. In summary,
these centers are managed as individual centers rather than as a center program, as
suggested in Appendix IV.

Chemical Bonding Centers (CBS). As noted in the Audit Report, the CBS Progmm
was being developed while this review was conducted. The areas identified as "IT'in the
table have now been incorporated in the Program or are under consideration.

Materials Research Science and Engineering Centers (MRSEC). As stated in the
NSB Report 05-166, "NSB recognized that the NSF's funding modes are not discrete, but
rather form a continuous spectrum of activities." Consequently, it is expected that'
Centers may differ in character depending on where they are along this "continuous
spectrum ofactivities." NSF has identified the MRSEC as a Center program, although
the MRSEC program has goals and characteristics that distinguish it from other Center
programs. For these reasons, MRSEC have different budget and duration conditions than
other Center programs. MRSEC also uses a different mechanism for annual project
reviews than site visit reviews; and, although MRSEC projects conduct strategic
planning, projects are not required to produce a strategic plan document.

Science and Technology Centers (STC). As noted in the Audit Report, the STC
program does not have a COV evaluation. However, the STC program is evaluated in
several other ways. Each directorate Advisory Committee reviews the Centers managed
through that directorate. The management of the STC program was reviewed by National
Academy of Public Administration. The National Academies of Sciences conducted a
review of the program, an STC Advisory Committee conducted a review of the program,
and an external review of the program is underway. The evaluation materials from these
reviews are provided to NSB and inform NSF management.

Nanoscale Science and Engineering Centers (NSEC). Issues of re-competition of
center awards and conditions for center phase-out have, in fact, been under consideration
by NSF for NSEC. The NSF-Wide ~ a n o s c a l eScience and ~ n g i n e e r i nWorking
                                                                               ~      Group
is now developing a policy similar to that used in the Engineering Research Center
Program.
Appendix II: Description of Each Center Procrram

In fiscal year 2006 NSF supported eight research Center programs. These
programs funded a total of 99 individual centers, in a variety of research fields,
for a total of over $250 million.

The two Centers for Analysis and Synthesis are designed to develop new
tools and standards for managing biological information. The National Center for
Ecological Analysis and Synthesis promotes integrative studies of complex
ecological questions and serves as a locus for the synthesis of large data sets.
The National Evolutionary Synthesis Center is working to foster a greater
conceptual synthesis in biological evolution by bringing together researchers and
educators, extant.data, and information technology resources.

The six Chemical Bonding Centers are designed to support major, long-term
"big questions" in basic chemical research. These questions include the
activation of strong bonds as a means to decrease energy requirements in
chemical processing, the design of self-replicating biological molecules, and the
synthesis of "smart materials."

Three Earthquake Engineering Research Centers focus on reducing
earthquake losses, integrating research and education, and developing
partnerships with industry and public agencies responsible for earthquake hazard
mitigation. NSF concluded this program in FY 2006.

Nineteen Engineering Research Centers focus on innovation by bridging
academia's intellectual curiosity with the real-world applications of industry-
focused research. The centers educate a technology-enabled workforce with
hands-on, real world experience. They create an environment that catalyzes the
development of marketable technologies to generate wealth and to address
engineering grand challenges. Examples of areas addressed by these centers
include biomedical healthcare innovations and multimedia information systems.

Twenty-nine Materials Research Science and Engineering Centers SI-~pport
interdisciplinary, cutting-edge research in polymers, structural materials, organic
systems and colloids, and other areas. The research at these centers has
potential technological impact to computers and communications, transportation,
energy storage, structural engineering, and health and medicine.

Seventeen Nanoscale Science and Engineering Centers address science and
engineering at the atomic, molecular and supramolecular levels. Research and
education at these centers attempt to advance basic understanding of specific
phenomena and novel concepts for processing at the nanoscale. The long-term
goal is a foundation for the ultra-small technology exploiting nanoscale behavior
that will transforni electronics, materials, medicine, environmental science and
many other fields.

Seventeen Science and Technology Centers advance discovery and
innovation in a diverse array of science and engineering disciplines. Focus areas
for these centers include cyber-security, materials and technologies for
monitoring water resources and water quality, medical devices, and modeling
and simulation of complex earth environments for improving their sustainability
and weatherlclimate prediction.

The six Science of Learning Centers represent a synergistic research effort to
address questions central to understanding learning and its societal implications.
Examples of research topics include the influence of interplay between informal
and formal environments on learning processes, modeling and experimental
studies of brain and behavior toward learning, and the processes involved in
learning visual languages and their applications for language processing.
Appendix Ill: National Science Board and Senior
Management Principles for Center Programs

In 2005, the National Science Board and NSF senior management issued
general guidance and principles for Center programs that provide a framework to
ensure for the management, oversight, and accountability for NSF's eight Center
programs. The Board and senior management principles, when examined
together, address four broad areas that provide guidance and expectations
regarding management practices at individual centers, NSF's own oversight
activities of its Center programs, funding levels and duration of NSF support, and
research and education characteristics of individual centers. These practices
can help mitigate management and performance risks associated with these
large investments. The following is a summary for each of these areas.

    1. Management practices at the individual centers should inc~ude:~
         o Strategic planning,
         o Specified management positions or management plans,
         o An external advisory board providing feedback to an individual
            center, and
         o Collecting and reporting of performance data.

        NSF own oversight practices for individual centers and the related Center
        program should include:
           o Reviewing center proposals for merit, including criteria of the added
              value of supporting frontier research using the center mode of
              support,
           o Conducting annual site reviews of the individual centers to ensure
              that the centers are proceeding towards their goals and objectives
              as set forth in their cooperative agreements, and are meeting the
              more general requirements of the research center program,
           o Performing critical reviews of individual centers as part of the
              process to determine if funding will be continued for the project,
           o Requiring that centers report on performance data, and
           o Conducting Corr~rr~ittee   of Visitors reviews and other external
              evaluations of the Centers programs.



  While the Board principles specifically mention strategic planning, neither the Board nor NSF
has further defined the "effective management practices" mentioned in the Board guidance. In
these cases we relied on the U.S. Government Accountability Office's Standards for Internal
Control in the Federal Government, which provides an overall framework for establishing and
maintaining internal controls and for identifying and addressing performance and management
challenges.
3. Funding levels and duration of NSF SI-~pport
                                              to individual centers should:
      o Range .from $2-5 million annually,
      o Not exceed 10 years,
      o Include conditions for the phase out of NSF support, and
      o Include recompetition of awards.

4. Education and research characteristics of a center should include:
     o Exploiting opportunities provided by an academic research setting,
     o Focusing on research at the frontiers of knowledge,
     o Broadening participation among underrepresented groups,
     o A comprehensive and integrative educational component,
     o Developing organizational linkages within and between campuses,
        schools and other sectors (i.e., public, private, international), and
     o Creating a legacy in people, ideas, new instrumentation and
        innovative technologies that transcend the life of NSF support.
Appendix IV: Comparison of Eight Center Programs
with Board and Senior Management Principles and
Practices
 The following table provides details of our analysis of whether each of NSF's Center
 programs incorporated the Board and NSF senior management principles and
 practices, which are outlined in detail in Appendix Ill.

 These abbreviations are used for the Center programs:
 CAS - Centers for Analysis and Synthesis
 CBC - Chemical Bonding Centers
 EERC - Earthquake Engineering Research Centers
 ERC - Engineering Research Centers
 MRSEC - Materials Research Science and Engineering Centers
 NSEC - Nanoscale Science and Engineering Centers
 STC - Science and Technology Centers
 SLC - Science of Learning Centers


     Center Program:     CAS   CBC   EERC   ERC      MRSEC       NSEC      STC    SLC
Principle:
Management
practices at the
individual centers
should include:
Strategic planning       Y     N      Y      Y          N          Y        Y      Y
Specified
management
positions or
management plans         Y     Y      Y      Y         Y           Y        Y      Y
External advisory
board providing
feedback to an
individual center        Y     Y      Y      Y         Y           Y        Y      Y
Collecting and
reportingof
performance data         N     N      Y      Y         Y           Y        Y      Y

NSF's oversight
practices for
individual centers
and the related
Center program
should include:
Merit review of center
proposals                Y     Y      Y      Y         Y          Y         Y      Y
Merit review includes
added criteria to
reflect center
attributes               Y     Y      Y      Y         Y          Y         Y      Y
Conducting annual
site reviews of
individual centers       Y     N      Y      Y         N          Y         Y      Y
Performing critical
reviews of individual
centers as part of the   Y     N      Y      Y         Y          Y         Y      Y
       Center Program:    CAS   CBC   EERC   ERC   MRSEC   NSEC   STC   SLC
 Principle:
 process to determine
 if funding will be
 continued
 Requiring centers
 report on performance
 data                     N     N      Y     Y      Y       Y     Y     Y
 Conducting
 Committee of Visitors
 review of the Center
 programs                 Y     Y      Y     Y      Y       Y     N     Y
 Conducting other
 external evaluations
 of the Center
 programs                 N     N      N     Y      Y       Y     Y     Y

 Funding levels and
 duration o f NSF
 support t o individual
 centers should:
 Range from $2 -5
 million annually         N     Y      Y     Y      N       Y     Y     Y
 Not exceed 10 vears      N     Y      Y     Y      N       Y     Y     Y
 Include conditions for
 the phase out of NSF
 support                  Y     N      Y     Y      Y       N     Y     Y
 Include recompetition
 of center awards         N     N      N*    Y      Y       N     Y     Y

  Education and
  research
  characteristics o f a
  center should
  include:
  Exploiting
  opportunities provided
  by an academic
  research setting        Y     Y      Y     Y      Y       Y     Y     Y
  Focusing on research
  at the frontiers of
  knowledge               Y     Y      Y     Y      Y       Y     Y     Y
  Broadening
  participation among
  underrepresented
 groups                   Y     Y      Y     Y      Y       Y     Y     Y
 Comprehensive and
  integrative
 educational
 component                Y     Y      Y     Y      Y       Y     Y     Y
  Developing
 organizational
 linkages within and
 between campuses,
 schools and other
 sectors (i.e., public,
  private, international) Y     Y      Y     Y      Y       Y     Y     Y
 Creating a legacy in
 people, ideas, new
  instrumentation and
  innovative
 technologies that
 transcend the life of
  NSF support.            Y     Y      Y     Y      Y       Y     Y     Y
*The EERC program has ended.
